                                                                                                             glossary I Appendix A I JULY 21, 2010              1




glossary
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: SBA program combin-                     requirements to borrow funds from banks with excess reserves.
ing Government-guaranteed loans with private-sector mortgage loans to
provide loans of up to $10 million for community development.                   Federal Funds Rate: Rate charged by a depository institution on an
                                                                                overnight loan of federal funds to another depository institution; the rate
7(a) Program: SBA loan program guaranteeing a percentage of loans               may vary from day to day and from bank to bank.
for small businesses that cannot otherwise obtain conventional loans at
reasonable terms.                                                               Federal Funds Transactions: Short-term transactions in immediately
                                                                                available funds — made between depository institutions and certain other
Asset Backed Securities (“ABS”): Bonds backed by a portfolio of non-            institutions that maintain accounts with the Federal Reserve — that
mortgage consumer or corporate loans, e.g., credit card, auto, or small         involve lending balances at the Federal Reserve; such transactions are
business loans. Financial companies typically issue ABS backed by exist-        usually not collateralized.
ing loans in order to fund new loans for their customers.
                                                                                Haircut: Difference between the value of the collateral and the value of
Auction Agent: Firms (such as investment banks) that buy a series of            the loan (the loan value is less than the collateral value).
securities from one institution for resale — also called “underwriters.”
                                                                                Illiquid Assets: Assets that cannot be quickly converted to cash.
Collateral: Asset pledged by a borrower to a lender until a loan is repaid.
                                                                                Legacy Assets: Commonly called troubled or toxic assets, these are real
Commercial Mortgage-Backed Securities (“CMBS”): Bonds backed by                 estate-related loans and securities issued before the financial institutions’
one or more mortgages on commercial real estate (e.g., office buildings,        balance sheets. Legacy assets lost significant value at the onset of the
rental apartments, hotels) rather than by residential real estate loans.        financial crisis and were difficult to price because of market disruption.

Common Stock: Equity ownership entitling an individual to share in              Legacy Securities: Real estate-related securities lingering on the balance
corporate earnings and voting rights.                                           sheets of financial institutions because of pricing difficulties resulting
                                                                                from market disruption.
Community Development Financial Institutions (“CDFIs”): Financial
institutions eligible for Treasury funding to serve the CDCI’s targeted         Limited Partnership: Partnership in which there is at least one partner
demographic under the CDFI Fund. CDFIs were created in 1994 by the              whose liability is limited to the amount invested (limited partner), and
Riegle Community Development and Regulatory Improvement Act.                    at least one partner whose liability extends beyond monetary investment
                                                                                (general partner).
Cumulative Preferred Stock: Stock requiring a defined dividend pay-
ment. If the company does not pay the dividend on schedule, it still owes       London Interbank Offered Rate (“LIBOR”): Interest rate that large
the missed dividend to the preferred stock’s owner.                             banks in London charge each other for dollar-denominated funds.

Custodian Bank: Bank (for TALF the custodian is BNY Mellon) holding             Mandatorily Convertible Preferred Stock (“MCP”): Preferred share
the collateral and managing accounts for FRBNY.                                 that can be converted to common stock at the issuer’s discretion if spe-
                                                                                cific criteria are met by a certain date.
Debtor-in-Possession (“DIP”): Company operating under Chapter 11
bankruptcy protection that technically still owns its assets but is operat-     Monetary Policy: Measures undertaken by a central bank, such as the
ing them to maximize the benefit to its creditors.                              Federal Reserve, to influence the availability and cost of money and credit
                                                                                to help promote national economic goals.
Dutch Auction: For a Treasury warrant auction (which has multiple bid-
ders bidding for different quantities of the asset) the accepted price is set   Nationally Recognized Statistical Rating Organization (“NRSRO”):
at the lowest bid of the group of high bidders, whose collective bids fulfill   Credit rating agency registered with the SEC. Credit rating agencies pro-
the amount offered by Treasury.                                                 vide their opinion on the creditworthiness of companies and the financial
                                                                                obligations issued by companies. The ratings distinguish between invest-
Equity Capital Facility: Commitment to invest equity capital in a firm          ment grade and non-investment grade equity and debt obligations.
under certain future conditions.
                                                                                Non-Agency Residential Mortgage- Backed Securities (“non-agency
Exceptional Assistance Recipients: Companies receiving assistance un-           RMBS”): Financial instrument backed by a group of residential real
der SSFI, TIP, AIFP, and any future Treasury program designated by the          estate mortgages not guaranteed by a Government-sponsored enterprise,
Treasury Secretary as providing exceptional assistance. Current recipients      such as the Federal National Mortgage Association (“Fannie Mae”) or the
are AIG, Chrysler, GM, and Ally Financial (formerly GMAC).                      Federal Home Loan Mortgage Corporation (“Freddie Mac”).

Excess Reserves: Balances held in within the Federal Reserve System             Non-cumulative Preferred Stock: Type of preferred stock that also
excess of the required reserve and any other contractually required bal-        features a defined dividend but the company has no obligation to pay any
ances.                                                                          dividends it misses.

Federal Funds: Funds deposited by commercial banks at the Federal               Non-recourse Loan: Secured loan whereby the borrower is relieved of
Reserve banks, thereby enabling banks temporarily falling short of reserve      the obligation to repay the loan upon surrender of the collateral.
2             Appendix a I glossary I JULY 21, 2010




    Open Market Operations (“OMO”): OMOs involve the purchase and                    Senior Subordinated Debenture: Debt instrument ranking below senior
    sale of securities in the open market by a central bank. These transactions      debt but above equity with regard to investors’ claims on company assets
    are a key tool used by the Federal Reserve to adjust the supply of reserve       or earnings. Senior debt holders are paid in full before subordinated debt
    balances so as to keep the effective federal funds rate near the target rate.    holders are paid. There may be additional distinctions of priority among
    OMOs are conducted by the trading desk at the Federal Reserve Bank of            subordinated debt holders.
    New York.
                                                                                     Skin in the Game: Equity stake in an investment; down payment; the
    Preferred Stock: Equity ownership that usually pays a fixed dividend             amount an investor can lose.
    prior to distributions for common stock owners but only after payments
    due to holders of debt and depositors. It typically confers no voting rights.    Special Purpose Vehicle (“SPV”): Off-balance-sheet legal entity that
    Preferred stock also has priority over common stock in the distribution of       holds the transferred assets presumptively beyond the reach of the enti-
    assets when a bankrupt company is liquidated.                                    ties providing the assets, and is legally isolated.

    Pro Rata: Refers to dividing something among a group according to the            Spread: Difference between two interest rates or the excess of return on
    proportionate share that each participant holds as a part of the whole.          a particular security or instrument relative to a benchmark.

    Prompt Corrective Action Order: Federal law requires that Federal                Synthetic ABS: Security deriving its value and cash flow from sources
    bank regulators take necessary actions to resolve the problems of insured        other than from a physical set of reference assets.
    depository institutions at the least possible long-term loss to the Deposit
    Insurance Fund.                                                                  Systemically Significant: Term referring to any financial institution
                                                                                     whose failure would impose significant losses on creditors and counter-
    Public Interest Standard: Regulatory standard that the Special Master is         parties, call into question the financial strength of similar institutions,
    required to apply in making determinations. It refers to the determination       disrupt financial markets, raise borrowing costs for households and busi-
    of whether TARP-recipient compensation plans are aligned with the best           nesses, and reduce household wealth (also commonly used to describe
    interests of the U.S. taxpayer, based on a balancing of specific principles      institutions known as “too big to fail”).
    set forth in the Rule.
                                                                                     TALF Agent: Financial institution that is party to the TALF Master Loan
    Quantitative Easing: Monetary policy used occasionally in which the              and Security Agreement and which occasionally acts as an agent to the
    Government increases the money supply by buying Government or other              borrower. TALF Agents include primary and nonprimary broker-dealers.
    securities from the market. Quantitative easing aims to increase the
    money supply by flooding financial institutions with reserves in an effort       Total Risk-Weighted Assets: Financial institutions’ total assets after
    to promote lending and liquidity. Such actions are conducted through             making adjustments based on each individual asset’s risk factor.
    OMOs.
                                                                                     Trial Modification: Under the design of HAMP, a trial modification is
    Required Reserves: Balances held within the Federal Reserve System to            generally intended to last three months.
    satisfy reserve requirements.
                                                                                     Trust Preferred Securities: Securities that have both equity and debt
    Reserve Requirements: Amount of money a depository institution must              characteristics created by establishing a trust and issuing debt to it.
    keep in reserve against specified deposit liabilities. The reserves must be
    in the form of vault cash or deposits held at the Federal Reserve banks.         Undercapitalized: Condition in which a financial institution does not
                                                                                     meet its regulator’s requirements for sufficient capital to operate under a
    Residential Mortgage-Backed Securities (“RMBS”): Bonds backed by                 defined level of adverse conditions.
    a pool of mortgages for residential real estate (e.g., home mortgages for
    residences occupied by up to four families) rather than by commercial            Under-Served Communities: Either geographic areas or demographic
    real estate loans.                                                               groups that Treasury’s CDFI Fund division determines lack adequate ac-
                                                                                     cess to financial services.
    Revolving Credit Facility: Line of credit for which the borrower pays a
    commitment fee and is then allowed to use up to a guaranteed maximum             Underwater Mortgage: When a homeowner owes more on the mortgage
    amount of funds as needed.                                                       than the home is worth. When a home’s value drops and/or when mort-
                                                                                     gage debt increases significantly, the homeowner has “negative equity” in
    SBA Pool Certificate: Ownership interest in a bond backed by SBA-                that home.
    guaranteed loans.
                                                                                     Warrant: Right, but not an obligation, to purchase a certain number of
    Senior Executive Officer (“SEO”): “Named executive officer” of a                 shares of common stock at a fixed price. Because warrants rise in value as
    TARP recipient as defined under Federal securities law, which generally          the company’s share price rises, Treasury (and the taxpayer) can benefit
    includes the principal executive officer, principal financial officer, and the   from a firm’s potential recovery.
    next three most highly compensated executive officers.

    Senior Preferred Stock: Shares that give the stockholder priority
    dividend and liquidation claims over junior preferred and common
    stockholders.
